CERTIFICATE OF SERVICE
I, Jason Torchinsky, a member of the bar of this Court, hereby certify that on this 3rd day
of June 2019, a copy of the foregoing Application for an Extension of Time in Which to File a
Jurisdictional Statement was served by electronic mail upon all counsel of record.
/s/ Jason B. Torchinsky____
Jason B. Torchinsky
HOLTZMAN VOGEL JOSEFIAK TORCHINSKY PLLC
45 North Hill Drive, Suite 100
Warrenton, VA 20186
Phone: (540) 341-8808
Fax: (540) 341-8809
JTorchinsky@hvjt.law
Joseph H. Yeager
Faegre Baker Daniels LLP
300 N. Meridian St. Suite 2700
Indianapolis, IN 46204
(317) 237-1278
Jay.Yeager@faegrebd.com
Counsel for Plaintiffs
Scott R. Eldridge
Miller, Canfield, Paddock & Stone
One Michigan Avenue,
Suite 900 Lansing, MI 48933
(517) 487-2070
eldridge@millercanfield.com
Counsel for Defendant Secretary of State
Gary P. Gordon
Jason T. Hanselman
Kyle M. Asher
Dykema Gossett, PLLC
201 Townsend Street Suite 900
Lansing, MI 48933
(517) 374-9181
Ggordon@dykema.com
Jhanselman@dykema.com
Kasher@dykema.com
Counsel for Michigan Senate Intervenors

